CERTIFICATE OF SERVICE

Republican Party of Pennsylvania et al. v. Kathy Boockvar et al., Dkt. 20-542
Scarnati III et al. v. Democratice Party of Pennsylvania et al., Dkt. 20-574
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA ET AL. AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS by mailing one (1) true
and correct copy of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
John Matthew Gore
Jones Day
51 Louisiana Avenue, N.W.
Washington, DC 20001
(202) 879-3939
jmgore@jonesday.com
Counsel for Republican Party of Pennsylvania

Jason Brett Torchinsky
Holtzman Vogel Josefiak Torchinsky PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
Jtorchinsky@hvjt.law
Counsel for Joseph B. Scarnati, III, et al.

Joseph Matthias Cosgrove
Selingo Guagliardo LLC
345 Market Street
Kingston, PA 18704-0000
(570) 287-2400
jmcosgro@msn.com
Counsel for Luzerne County Board of Elections

John Bartley DeLone
Attorney General's Office
Pennsylvania Office of Attorney General
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Counsel for Secretary of State Kathy Boockvar

Donald B. Verrilli Jr
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
202-220-1101
donald.verrilli@mto.com
Counsel for Pennsylvania Democractic Party

Gerard J. Geiger
Newman, Williams Et. Al.
712 Monroe St.
P.O. Box 511
Stroudsburg, PA 18360
(570) 421-9090
ggeiger@newmanwilliams.com
Counsel for Carbon County Board of Elections,
Monroe County Board of Elections, Pike County
Board of Elections, Wayne County Board of
Elections, Schuylkill County Board of Elections

_____________________________
Chan Sekhar
November 9, 2020

